No. 20-861

 

 

IN THE

Supreme Court of the Anited States

ARLENE FRY,
Petitioner,

Vv.

RAND CONSTRUCTION CORPORATION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,305 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 26, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
